July 15, 2021

Mark A. Perry
Direct: +1 202.887.3667
Fax: +1 202.530.9696
MPerry@gibsondunn.com

VIA ELECTRONIC FILING
The Honorable Scott S. Harris
Clerk of Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

VoIP-Pal.com, Inc. v. Apple, Inc., et al., No. 20-1809

Dear Mr. Harris:
I am counsel of record for respondent Apple, Inc. in the above-captioned
case. The petition for a writ of certiorari in this case was docketed on June 29,
2021, and any responses are currently due on July 29, 2021. Pursuant to Supreme
Court Rule 30.4 and on behalf of all respondents, I respectfully request a 30-day
extension of time, to and including August 30, 2021 (August 28 is a Saturday),
within which to file a response.
This extension is requested to allow adequate time to prepare a response to
the petition in light of several significant professional obligations I and counsel
for Amazon.com, Inc. and Amazon Technologies, Inc. have in matters pending
before this Court and other courts, as well as to consider and, if necessary, respond
to any briefs of amici curiae filed in this case.
Respectfully submitted,

Mark A. Perry

cc:

Lewis E. Hudnell, III
Counsel for Petitioner
Daniel T. Shvodian
Nathan K. Kelley
Wing Liang
Counsel for Respondents Amazon.com, Inc. and Amazon Technologies, Inc.

